OIG Audit Report GR-60-07-004

Office of Justice Programs Southwest Border Prosecution Initiative Funding Received by the Maricopa County Attorneys Office, Phoenix, Arizona

Audit Report GR-60-07-004


April 2007
Office of the Inspector General


Executive Summary


The U.S. Department of Justice, Office of the Inspector General, Audit Division, has completed an audit of the Southwest Border Prosecution Initiative (SWBPI) funding awarded by the Office of Justice Programs (OJP) to the Maricopa County Attorney’s Office (Maricopa County).
 Many drug and other criminal cases occurring along the southwest border are initiated by a federal law enforcement agency or multi‑jurisdictional task forces, e.g., High Intensity Drug Trafficking Areas (HIDTA) and Organized Crime Drug Enforcement Task Forces (OCDETF). The U.S. Attorney for the District of Arizona developed prosecution guidelines which govern federal narcotics violations. These prosecution guidelines are used by law enforcement agencies to determine whether to file a case in federal, state, or county court. As a result, many federally initiated cases occurring near the southwest border are referred to the state or county for prosecution. 
The SWBPI was established in FY 2002, when Congress began appropriating funds to reimburse state, county, parish, tribal, and municipal governments for costs associated with the prosecution of criminal cases declined-referred by local U.S. Attorneys’ offices. Reimbursements received from SWBPI funding may be used for any lawful purpose that is in the best interest of the jurisdiction. For FY 2006, Congress appropriated $30 million for the SWBPI.
 As of January 8, 2007, Maricopa County had received SWBPI funding totaling $2,344,929 and requested an additional $576,250 for the second and third quarters of FY 2006. 
 The objective of our audit was to determine if the SWBPI reimbursements received by Maricopa County were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the SWBPI.
 We found that Maricopa County claimed and was reimbursed for cases that were ineligible under the SWBPI guidelines. Based on the deficiencies listed below, we identified questioned costs totaling $193,357 and funds to better use totaling $10,000.1  Specifically, we found:

 Maricopa County received reimbursements totaling $151,662 for 31 cases for which the supporting case files had been destroyed despite the fact that the 3-year record retention period had not yet ended . 
 Maricopa County received reimbursements totaling $25,286 for six cases for which the supporting case files could not be located . 
Maricopa County received reimbursements totaling  $16,409 f or three cases that were not eligible under the SWBPI guidelines. 
 Maricopa County had requested but not yet received reimbursements totaling $10,000 for two cases for which the supporting case files could not be located . 
 Maricopa County requested but had not yet received unallowable SWBPI funds totaling $10,000 for one case that was submitted in an incorrect application quarter. However, subsequent to the issuance of our draft report, Maricopa County provided documentation supporting that the original resolution date provided to us was incorrect and the correct date was provided. As a result, we are not taking exception to the $10,000 reimbursement requested for this case. 

 These items are discussed in detail in the Findings and Recommendations section of the report. Our audit Objectives, Scope, and Methodology appear in Appendix I. 



Footnotes

The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs. However, not all findings are dollar-related. See Appendix II for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.








Return to OIG Home Page